Case 5:19-cv-02492-CBM-SP Document 80 Filed 08/19/20 Page 1 of 1 Page ID #:408

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 19 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MELISSA CALABRESE,

No.

Plaintiff-Appellant,

20-55765

D.C. No.
5:19-cv-02492-CBM-SP
Central District of California,
Riverside

v.

STATE OF CALIFORNIA; et al.,
ORDER
Defendants-Appellees.
Before: SILVERMAN, McKEOWN, and BRESS, Circuit Judges.
A review of the record demonstrates that this court lacks jurisdiction over
this appeal because the orders challenged in the appeal are not final or appealable.
See 28 U.S.C. § 1291; Fed. R. Civ. P. 54(b); Chacon v. Babcock, 640 F.2d 221,
222 (9th Cir. 1981) (order is not appealable unless it disposes of all claims as to all
parties or judgment is entered in compliance with rule); see also WMX Techs., Inc.
v. Miller, 104 F.3d 1133, 1136 (9th Cir. 1997) (en banc) (dismissal of complaint
with leave to amend is not appealable); Wilborn v. Escalderon, 789 F.2d 1328 (9th
Cir. 1986) (denial of appointment of counsel in civil case is not appealable).
Consequently, this appeal is dismissed for lack of jurisdiction.
DISMISSED.

DA/Pro Se

APPENDIX A

Case 5:19-cv-02492-CBM-SP Document 16 Filed 01/17/20 Page 1 of 2 Page ID #:72
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

CV19-2492-CBM-(SPx)

Date

January 17, 2020

Melissa Calabrese v. State of California et al.

Present: The Honorable

CONSUELO B. MARSHALL. UNITED STATES DISTRICT JUDGE

YOLANDA SKIPPER
Deputy Clerk

NOT REPORTED
Court Reporter

Attorneys Present for Plaintiff;

Attorneys Present for Defendants:

NONE PRESENT

NONE PRESENT

Proceedings:

IN CHAMBERS- ORDER RE: APPLICATION FOR AN ORDER
GRANTING LEAVE TO FILE A DOCUMENT UNDER SEAL,
PETITION FOR VENUE IN RIVERSIDE FEDERAL DISTRICT
COURT, APPLICATION FOR PERMISSION FOR ELECTRONIC
FILING, AND PETITION FOR APPOINTMENT OF “NEXT FRIEND”

Pending before the Court are the following petitions and applications filed by Dorothy Calabrese,
M.D. (“Petitioner”), on behalf of Plaintiff Melissa Calabrese: (1) Application for an Order Granting
Leave to File a Document Under Seal (Dk1. No. 1); (2) Petition for Venue in Riverside Federal District
Court Under Americans With Disabilities Act (Dkt, No. 5); (3) Application for Permission for
Electronic Filing (Dkt, No. 6); and (4) Petition for Appointment of “Next Friend” (Dkt, No. 15),
The Application for an Order Granting Leave to File a Document Under Seal (Dkt. No. 1) is
GRANTED, and Exhibit A to the Complaint may be filed ruider seal.
The Complaint was filed on behalf of Plaintiff by Petitioner as Plaintiffs “next friend.”
Petitioner now seeks to be appointed as Next Friend for Plaintiff pursuant to Federal Rule of Civil
Procedure 17(c)(2), which provides: “A minor or an incompetent person who does not have a duly
appointed representative may sue by a next friend or by a guardian ad litem. The court must appoint a
guardian ad litem-or issue another appropriate order-to protect a minor or incompetent person who is
unrepresented in an action.” “In order to establish standing, the next friend must: (1) provide an
adequate explanation—such as inaccessibility, mental incompetence, or other disability—why the real
party in interest cannot appear on his own behalf to prosecute the action: and (2) be truly dedicated to
the best interests of the person on whose behalf he or she seeks to litigate and have some significant
relationship with the real party in interest.” Miller ex rel. Jones v. Stewart, 231 F.3d 1248, 1251 (9th

00
CV-90 (12/02)

Civil. MINUTES - GENERAL

APPENDIX B

Initials, of Deputy Clerk YS

Case 5:19-cv-02492-CBM-SP Document 16 Filed 01/17/20 Page 2 of 2 Page ID #:73
Cir. 2000); see also Coal, of Clergy, Lawyers, & Professors v. Bush, 310 F.3d 1153, 1159-60 (9th Cir.
2002). The Court finds Petitioner has demonstrated Plaintiffs mental incompetence precludes her from
appearing on her own behalf in this action, and Petitioner has a significant relationship to Plaintiff (as
Plaintiffs mother) and is dedicated to the best interests of Plaintiff. However, “a ‘next friend’ who is
neither an attorney nor represented by one may not bring a lawsuit on behalf of minor or incompetent
plaintiffs.” Roe v. Suter, 165 F.3d 917 (9th Cir. 1998). There is no evidence before the Court
demonstrating Petitioner is an attorney or represented by an attorney. Accordingly, the Petition for
Appointment of Dorothy Calabrese as “Next Friend” is DENIED WITHOUT PREJUDICE.
To the extent Petitioner seeks to proceed in this action as “next friend” for Plaintiff, Petitioner
shall obtain counsel and notify the Court re same no later than February 17, 2020. Petitioner’s failure
to obtain representation by counsel and notify the Court re same by that date may result in dismissal of
this action without prejudice. Roe v. Suter, 165 F.3d 917 (9th Cir. 1998) (affirming dismissal of action
without prejudice where next friend was neither an attorney nor represented by counsel).
Having denied without prejudice the Petitioner’s Petition for Appointment as “Next Friend,”
Petitioner’s Petition for Venue in Riverside Federal District Court Under Americans With Disabilities
Act and Application for Permission for Electronic Filing are DENIED WITHOUT PREJUDICE.
Petitioner may refile the petition and application upon obtaining counsel for this action.
IT IS SO ORDERED.
cc: all parties

00
CV-90( 12/02)

CIVIL MINUTES - GENERAL

APPENDIX B

Initials of Deputy Clerk YS

Case 5:19-cv-02492-GBM-3P Document 76 Filed 06/19/20 Page 1 of 2 PagelD#:392
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL

ED CV 19-2492-CBM (SPx)

Case No.
Title

Date

June 19, 2020

Melissa Calabrese v. State of California et al.

Present: The Honorable

CONSUELO B. MARSHALL, UNITED STATES DISTRICT JUDGE

DAISY ROJAS
Deputy Clerk

NOT REPORTED
Court Reporter

Attorneys Present for Plaintiff:

Attorneys Present for Defendants:

NONE PRESENT

NONE PRESENT

Proceedings:

IN CHAMBERS- ORDER RE: REQUEST FOR SERVICE BY MARSHAL
PURSUANT TO FED. R. CIV. P. 4(C)(3) AND 28 U.S.C. § 1915(D) [48];
MOTION FOR COURT-ASSIGNED PRO BONO COUNSEL [45]; AND
DECLARATION OF DOROTHY CALABRESE, M.D. [46]

Pending before the Court are the following matters filed by Dorothy Calabrese, M.D. (“Petitioner”), on
behalf of Plaintiff Melissa Calabrese: (1) Request for Service by Marshal Pursuant to Fed. R. Civ. P. 4(c)(3) and
28 U.S.C. § 1915(d); (2) Motion for Court-Assigned Pro Bono Counsel; and (3) Declaration of Dorothy
Calabrese, M.D., requesting “appointment as Next Friend when Plaintiff has been assigned pro bono counsel.”
(Dkt. Nos. 45, 46, 48.)
Plaintiff proceeds in this action pro se. However, the pending matters were filed and signed by Dorothy
Calabrese, a non-lawyer.1 Neither Plaintiff nor Dorothy Calabrese are represented by counsel, and Dorothy
Calabrese cannot represent Plaintiff. See Local Rule 83-2.2.1 (“Any person representing himself or herself in a
case without an attorney must appear pro se for such purpose. That representation may not be delegated to any
other person -- even a spouse, relative, or co-party in the case. A non-attorney guardian for a minor or
incompetent person must be represented by counsel.”).
Furthermore, “[a]s a general proposition, a civil litigant has no right to counsel.” Olson v. Smith, 609 F.
App’x 370, 372 (9th Cir. 2015) (citing Lassiter v. Dept, ofSocial Servs. ofDurham Cty., 452 U.S. 18 (1981);
Storseth v. Spellman, 654 F.2d 1349, 1353 (9th Cir. 1981)). A court may under “exceptional circumstances”
appoint counsel for indigent civil litigants pursuant to 28 U.S.C. § 1915(e)(1). Id. (citing Agyeman v. Corrs.
Corp. ofAm., 390 F.3d 1101, 1103 (9th Cir. 2004), cert, denied sub nom. Gerber v. Agyeman, 545 U.S. 1128
i

As set forth in the Court’s January 17, January 31, and February 10, 2020 orders, there is no evidence
demonstrating Dorothy Calabrese is an attorney or represented by an attorney and therefore she cannot represent
Plaintiff. (See Dkt. Nos. 16, 17, 23 (citing Roe v. Suter, 165 F.3d 917 (9th Cir. 1998) (a “next friend” who is
neither an attorney nor represented by one may not bring a lawsuit on behalf of minor or incompetent plaintiffs).)

00
CV-90 (12/02)

CIVIL MINUTES - GENERAL

APPENDIX C

00

Initials of Deputy Clerk DR

Case 5:19-cv-02492-CBM-SP Document 76 Filed 06/19/20 Page 2 of 2 Page ID#:393
(2005)). “When determining whether ‘exceptional circumstances’ exist, a court must consider ‘the likelihood of
success on the merits as well as the ability of the petitioner to articulate his claims pro se in light of the
complexity of the legal issues involved.’” Id. (citing Weygandt v. Look, 718 F.2d 952, 954 (9th Cir. 1983)).
Here, Plaintiff has not demonstrated a likelihood of success on the merits2 or that complexity of legal issues
involved constitute exceptional circumstances for appointment of counsel.
Accordingly, the requested matters are DENIED without prejudice.
IT IS SO ORDERED.

2 On June 1, 2020, the Court granted Defendants’ Providence St. Joseph Health and Mission Hospital Regional
Medical Center’s Motion to Dismiss Complaint with leave to amend no later than June 16, 2020. (Dkt. No. 71.)
To date, no amended complaint has been filed.

00
CV-90 (12/02)

CIVIL MINUTES - GENERAL

APPENDIX C

00

Initials of Deputy Clerk DR

Case 5:19-cv-02492-CBM-SP Document 75 Filed 06/19/20 Page 1 of 1 Page ID #:391
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL

Case No.

L

r Title

j Date ! June 19, 2020

5:19-cv-02492-CBM (SPx)

Melissa Calabrese, M.D. v. State of California, et al.

Present: The Honorable

i

; CONSUELO B. MARSHALL, UNITED STATES DISTRICT JUDGE
Not Present
Court Reporter

Daisy Rojas
Deputy Clerk
Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

IN CHAMBERS-ORDER AND NOTICE TO ALL PARTIES

The Court finds that Plaintiffs Motion for Court-Assigned Pro Bono Counsel [45], Plaintiffs Motion for
Appointment of Next Friend [46], and Plaintiffs Request for Service by Marshal Pursuant to
Fed.R.Civ.P.4(c)(3) and U.S.C. § 1915(d) [48], currently scheduled for hearing on June 23, 2020, is appropriate
for decision without oral argument.
Accordingly, this motions are taken UNDER SUBMISSION and the hearing is vacated. No appearances
are necessary on June 23, 2020. A written order will issue.

IT IS SO ORDERED.
cc: all parties

CV 90(12/02)

CIVIL MINUTES - GENERAL

Initials of Deputy Clerk dr_

